                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                                   CLOSEOUT MEMORANDUM


1   Case Number: 108050031                                                                     Page 1 of 1



             An anonymous NSF employee notified OIG that an NSF employee1 had been using his office
             computer to view inappropriate images. OIG identified sexually explicit material on the network
             storage space assigned to the employee and on the employee's computer hard drive. OIG
             interviewed the employee, who acknowledged having visited an inappropriate adult pornographic
             Web site numerous times during the last two years and chatting online with performers on the site
             using his NSF computer and personal funds. OIG submitted a report of investigation2 to the
             appropriate NSF official3for action. NSF made a decision to terminate his employment, but allowed
             the employee to retire before the effective termination date.4

             Accordingly, this matter is closed.




    NSF OIG Form 2 (1 1/02)
                                  NATIONAL SCIENCE FOUNDATION
                                        4201 Wilson Boulevard
                                      ARLINGTON, VIRGINIA 22230



                                          June 25,2008



       OFFICE OF
  INSPECTOR GENERAL
                            . .


Confidential


     To:                                                                                 -
  From:

 Subject:      Investigative Report (Case # IOB05003 1)



 Please note: This report contains confidential personal information and it should be disclosed
 only to individuals who must have knowledge of its contents to facilitate NSF's assessment
 and resolution of this matter. Unauthorized disclosure may result in personal criminal .
 liability under the Privacy Act, 5 U.S.C. 4 552a(i)(l).



The atttiched Investigative Report concerns a senior staff member who, for the last two years, has
been spending a material part of most workdays using his NSF computer and
telecommunications services to view online porno.graphy, including private, paid "chat"
interactions with "performers" on the website preferred by the senior staff member. The senior
staff member took no steps to conceal his activities, such that office employees using a nearby
copy/storeroom could, and did, observe pornographic images -on the senior staff member's
computer display throughout the time he viewed the pornography.

Based on the facts set out in the Investigative Report, we have concluded:

        The senior staff member spent a considerable amount of official government time using
        an NSF computer and networklinternetle-mail account visiting a pornographic website,
        engaging in sex-oriented online "chatting," and viewing inappropriate material;

        The senior staff member is being paid an SES salary for SES-level work and has
        misused government time and resources instead of performing the duties he is paid to
        carry out as a senior government official;

        The senior staff member's lack of respect or regard for others within the NSF agency
        workplace who might inadvertently'obser-vehis viewing of offensive sexually explicit
        material created a hostile, offensive work environment and fostered the unhealthy
        perception of a double standard for senior executives; and,

       The senior staff member has spent at least 33 1 days and over $40,000 of his own money
       since June 2006 viewing online pornography while on duty at NSF using his NSF
       computer facilities. He spent at least 3.7 percent and more likely 15 percent of his duty
       time, at a cost to taxpayers of at least $13,800 and more likely $58,000 to facilitate his
       on-line activities.

Please advise me by July 25,2008 of the actions taken regarding the recommendations contained
in our report.


Attachment



cc:
     National Science Foundation
     Office of Inspector General




                      Confidential
                  Investigation Report
                Case Number I08050031
                               25 June 2008

       -




This Confidential Investigation Report is the property of the NSF-OIG and may be disclosed outside         .
   NSF only by OIG under the Freedom of Information and Privacy Acts, 5 U.S.C. $3552, '552a.

                                                                                 NSF OK; Form 22b(l1/06)
     Please note: This report contains confidential personal information and it should be disclosed
     only to individuals who must have knowledge of its contents to facilitate NSF's assessment .
     and resolution of this matter. Unauthorized disclosure may result in personal criminal
     liability under the Privacy Act, 5 U.S.C. 8 552a(i)(l).



                                                    Summary

 This investigation involves a National Science Foundation (NSF) senior staff member', who
 acknowledged to the Office of Inspector General (OIG) that he has been inappropriately utilizing
 his NSF computer to access a website2 containing adult pornography. He stated that he accesses
 this site to view images of nude and partially dressed women, and regularly engages in "online
 chats" with them for a fee, which allows him to ask for live sexual performances via the
 "performer's" live webcarn. ,OIG's review of the senior staff member's R drive3 and C drive4
 confirmed that the senior staff member had visited the website on numerous occasions, and that
 the "temporary internet files" folder on the senior staff member's C drive contained snapshot
 image fileslphotos of nude and partially dressed women. n i s website, which OI'G determined to
 be a pornographic website, was also listed as a link in his website "favorites" folder.

 The OIG identified a violation of current NSF Policy regarding Personal Use of NSFJs
 Technology and Communication Resources contained in NSF BULLETIN 04-1 1 and determined
 that the senior staff member spent a significant amount of his official government time accessing
 a pornographic website to view inappropriate material and engage in online sex-oriented chats,
 which constituted not only a breach of ethical and professional standards, but also false claims
 for salary for each time card that did not acknowledge the substantial time spent on unofficial
 activities. The OIG fiuther established that the senior staff member% activities were visible to
 others in the directorate and adversely affected the work environment.

                                              OIG Investigation

 A. Background

 NSF 01G received a Hotline complaintS indicating that a senior staff member routinely viewed
 and displayed pornographic images of "young nude girls" on his NSF desktop monitor located in
 his office. This complaint alleged that his computer monitor was located on his desk in a
 position such that anyone passing by his office could observe the images he was viewing.




I'
  www.liveiasmin.com (See Tab # 1 - Copy of www.livejasmin.com website pages)
  The R drive is a designated network drive assigned to each NSF staff membeduser for individual use/storage of
 data and accessible only by the individual staff memberhser andlor OIRM/DIS technical staff.
  The C drive is the staff member's desktop computer drive.
  See Tab # 2 - Copy of 1" allegation received by OIG.
    OIG's review determined and confirmed that the senior staff member had visited a pornographic
    website titled www.liveiasmin.com repeatedly during his official work hours. OIG's review of
    the senior staff member's computer files on his C drive (the "temporary internet files" associated
    with the senior staff member's user profile) identified more than 4,800 image files and photos of
    nude and partially dressed women. Many of these photos were sexually graphic in nature,
    including some in which the women appeared to engage in sexual acts. OIG also found a small
    number of e-mails in the senior staff member's e-mail archives for 2006, in which he raised
I   various billing and site-usage questions with the website host, and in some of which his NSF
    office auto-signature is v i ~ i b l e . ~                                                             1
    Although the website that the senior staff member visited claims on its site that all of its models
    are over the age of 18, OIG has no way of verifying that information. In order to determine if the
    senior staff member has viewed or accessed any imageslphotographs or sites that include child
    pornography, copies of the images and photos obtained from his C drive have been sent to the
    National Center for Missing and Exploited Children for a forensic comparison with known child
    pornography images. This review will take 6-8 weeks and if any images are identified as child
    pornography a criminal investigation may be initiated.

    As part of its preliminary evaluation of activity on the senior staff member's C drive, OIG
    determined that the senior staff member's internet browser was not set to save "history" data; the
    setting for the number of days to keep pages in history had been set to zero days. This meant
    that his internet activity on a daily basis was not saved. This was determined to be unusual as all
    computers have the internet history files saved for a set period of time between 30 days to 6
    months (Microsoft default is 20 days). The default setting had been apparently modified. Thus,
    to obtain useful C drive information about the senior staff member's internet usage, OIG had to
    request remote backups of his C drive at least once a day for a period of time in order to
    determine his actual activity. OIG reviewed and compared the senior staff member's ITAS times
    and his internet activity for a sample period of 4 work days. This review determined that the
    senior staff member, while at work, spent 24.5% of his work day on the pornographic website.

    B. Avulicabilitv of NSF Policy

    Pursuant to NSF policy regarding Personal Use of NSF's Technology and Communication
    Resources contained in NSF Bulletin 04-1 1 ("NSF's Personal Use Policy")', NSF staff members
    are authorized to use NSF technology and corruhunication resources for occasional personal use.
    However, this policy creates express limitations on personal use, citing the Federal CIO
    Council's 1999 Model PolicdGuidance on "Limited Personal Use" ("Model ~olic~")',for
    examples of inappropriate uses.

    According to Section IV of the Model Policy:

    "Employees are expected to conduct themselves professionally in the workplace and to refiain
    from using government office equipment for activities that are inappropriate. Misuse or

        See Tab # 3 - Copies of emails sent by senior staff member.
    7
        See Tab # 4 - Copy ofNSF Bulletin 04-1 1
        See Tab # 5 - Copy of Federal CIO Council's 1999 Model Policy/Guidance on "Limited Personal Use"
     inappropriate use of government office equipment includes . . . Using government office
     equipment for activities that are illegal, inappropriate, or offensive to fellow employees or the
     public . . . and . . . the creation, download, viewing, storage, copying, or transmission of
     sexually explicit or sexually oriented materials."

 OIG obtained information that the senior staff member completed the Information Technology
 online security training in 2005, 2006 and 2007. As of the date of this report, the staff member
 has not yet taken the training for this year.9 This training includes NSF's IT Security "User
 Responsibilities-Rules of ~ehavior."" NSF users agree to comply with the rules, one of which
 states the following:

            ". . . I understand that NSF IT resources, including e-mail accounts, are for authorized
            Government use only and in accordance with NSF policy, any activity that would
            discredit NSF, including seeking, transmitting, collecting, or storing defamatory,
            discriminatory, obscene, harassing, or intimidating messages or material is not
            permitted."

Based on its review of the senior staff member's remotely-sampled daily computer activity, .DIG
concluded that he violated NSF's computer use policies.
                                                                                                                      I


C. Interview of Senior Staff Member

The senior staff member was interviewedH by representatives from NSF's Office of Inspector
General in reference to the imageslphotos and internet history information identified on his
computer. Prior to the interview OIG provided the senior staff member with a copy of a Garrity
warningI2 which he read and signed. During the interview the senior staff member stated he did
not maintain imageslphotos on his computer but rather he would access or open the website
www.liveiasmin.com once in a while. He stated that one would characterize this site as being
inappropriate. He said that sometimes he viewed photos and sometimes he would chat online
with some of the women on the website. He stated that he just came across the site
(www.liveiasmin.com) one day back in 2006. He said that he was not searching for this type of
site at the time and that it appeared while he was on the internet. The senior staff member
explained that when one accesses the site there are two options, the first option is to visit a part          '


of the site that is free and includes an area for viewing partially dressed women's photos and for
chatting with some of the women online. The other area on the site is a private, pay-for-setvices
site that requires the visitor to subscribe and provide a form of payment to view more explicit
photos and engage in private chats and online sexual encounters. He said that the free photos
and chats are not explicit and the women do not take off their clothes. He explained that for the
private chats, the women do take their clothes off and that this activity is live via a webcam. He
stated that he is a registered member and he pays for private access. He estimated that he pays
about $2 per minute when accessing the private site. He said that he .goes to the site a few times
a week, some weeks more, some weeks less. He said he may possibly access the site everyday.                       !


     See Tab# 6 - Email listing the senior staff member's IT Computer Security Training history.
lo              -
     See Tab # 7 Copy of NSF IT Security "User Responsibilities-Rules o f Behavior."
I'
''
                                                  -
     Tab # 8 - Memorandum of Investigation (MOI) Interview of the senior staff member, dated June 1 1,2008.
     Tab # 9 - Garrity Warning signed by the senior staff member.


                                                         3
                                                                                                                  ~
                                                                                                                  j
                                                                                                                  I
    Initially he indicated that he visits the site for 10 minutes or so per day and that this is done
    around lunch time or after work hours but later acknowledged that he accesses the site during
    work hours. He stated that he did not believe he spent more than 2 hours a day, but later said
    that there may have been times he was on the site longer than 2 hours, but that he tries to control
    it. He stated he engages in a combination of viewing the women's photos and chatting with
    them, and he added that there are several women he communicates with on a regular basis and
    sometimes emails or communicates with them outside the website.

    The senior staff member said that he uses his NSF email address and does not use his personal
    email address or view this site at home because he respects his wife and does not think she would
    appreciate his activity on this site. He said he used his own personal credit card to pay for the
    viewing and chatting sessions. He stated that he did not use his .government issued travel card to
    pay for the website charges and said that he does not have a%governmentissued calling card. He
    said that he has never used his Blackbeny or his office phone to make calls. He estimated that
    he spends about $100 on any given session when he is on this website. He explained that these
I   young women are from poor countries and need to make money to help their parents and this site
    helps them do that. The young women are from various countries. He said he has mostly
    chatted with and viewed live performances by Filipino women. He said he has never met any of
    the performers in person or traveled to any countries to meet them.
I
I

    The senior staff member stated that he does not share imageslphotos from the site with others.
    He does not copy, save or download anything onto his oEce computer, any external drive,
    storage device, or CD/DVD.
I
    The senior staff member was shown a list of his web browser internet history13 for one date
    (April 3, 2008) which showed sites he had visited and he acknowledged that these were indeed
    sites he accessed, particularly the one inappropriate site (www.liveiasmin.com) which he
I

I
    frequented that contained pornographic material. Upon reviewing the history information he
    commented "Seems like quite a lot, doesn't it." He was asked if he has viewed any child
I   pornography and he stated he has not. He stated that the www.liveiasmin.com site he visits
I   states that all performers are 18 or older. He was shown several printouts of thumbnail photos
I   which were found on his C drive.14 He acknowledged that these are the types of images he
    views.

    The senior staff member stated that he understood that these activities were inappropriate at work
    and inappropriate activities for NSF computer resources.              The senior staff member
    acknowledged that he was familiar with NSF's personal use policy Tor use of *government
    equipment and that he has participated in the A.gency9s Computer 'Security rain in^." The
    senior staff member voluntarily provided a written affidavit.l 6


                   -
    l 3 See Tab # 10 Copy of sample web browser internet history shown to senior staff member (April 3,2008). All
    web browser internet history available upon request on CD.
    14
                   -
        See Tab # 1 1 Sample photos shown to the senior staff member, chosen to be as representative of the entire
    collectiori as possible. Due to the large volume of images found on the C drive, we asked the senior staff member to
    review only a sample. All photos found available upon request.
        See Tab # 6 - Email listing dates the senior staff member completed IT Computer Security Training.
    l6 See Tab # 12 - Affidavit written by senior staff member.
    1        The senior staff member stated he used his personal credit card to pay for the online charges for
             the www.liveiasmin.com website activity and during a follow-up interview", which was
             conducted in his office, he was asked to provide his credit card information and account number.
             He retrieved his credit card from a locked desk drawer in his office and not fiom his wallet. He
             provided OIG with the credit card account number and was asked if he would provide copies of                      -

             his billing statements for this account for the last two years. He agreed and stated that he could
             obtain these statements online. He accessed his account online and printed out and provided
             OIG with his billing statements1*for the time period of April 2006 to May 2008. The senior
             staff member acknowledged that these were his statements, and that he incurred the charges on
             them.

             D. Credit Card Data Analysis

            OIG reviewed the credit card billing statements and found that the senior stamember used his
            work address as the mailing address for the credit card billing statements. A review of the
            transactions charged to the card show that he predominantly used this card to pay for his online
            sessions on the website www.liveias~nin:com.'~ From the billing statements provided, the
            earliest date found for the online transaction charges was on June 14, 2006 and the most recent
            date found for his online transaction charges was on May 13, 2008. In this 24-month time
            period, the senior staff member spent $40,358.81 in 1,020 transactions on 386 days. Charges for
            the online services were found to have occurred mostly on weekdays (33 1 days, $36,359.37) and
            in some instances on weekends (55 days, $3,998.84).20

            Certain general observations can be made using this data. At a rate of $2.00 per minute,
I           workday expenditures of $36,359.37 represent 18,180 minutes, or 303 hows, or 7.57 forty-how
I
            weeks. This many weeks in a 24-month period constitutes about 7.3% of the senior staff
            member's official time at NSF devoted to online pornography viewing for which the senior staff
            member paid the website viewing/access fees. In terms of salary and benefits, this amounts to
            slightly more than $27,300 paid by NSF to or on behalf of the senior staff member. If one gives
            the benefit of the doubt to the senior staff member and assumes that 30 minutes of every viewing
            day's activity occurred during the uncompensated 30 minute lunch break or rest period each
            employee working over five hows is required,to take, this amount is reduced by about one-half,
            to slightly over $13,800.~'
I




            " See   Tab # 13 - MOT - Interview of senior staff member, dated June 12,2008.
                           -
                See Tab # 14 Copies of senior staff member's personal credit card billing statements.
I
            l 9 The 2006 transactions on the card also involved some charges to various third-party internet payment vendors
I           (Paycom.net, Safshop.com, Safshop LLC) associated with another online pornography website,
            www.asianbabecams.com (See Tab # 15 - Copy of www.asainbabecams.comwebpage). These charges ended in
            August 2006. The link between the website and these vendors is visible in some of the e-mails obtained fiom the
            senior staff member's e-mail archives. The charges associated with www.livejasmin.comwere processed through
            Clear-Cash.com and Lalibco.com, which are either directly mentioned on the website or referenced in e-mails from
        '   the archives.
            20 AS noted previously, the senior staff member used only his NSF computer when he viewed pornography, both
            weekdays and weekends.
            ''  The percentage reduction is from 7.3% to 3.7%.
I   ,   It is reasonable to assume, however, that the senior staff member spent at least as much time
        viewing free suggestivelexplicit images as he spent viewing fully explicit images and videos and
        engaging in online sex-oriented interactions for which he had to spend his own money. Said
        another way, it is unlikely that the senior staff member limited himself to expensive paid viewing
        when free pornographic images were also easily accessible on the site he visited. Assuming the
        sarnple-based viewing rate of 24.5% is an accurate estimate of the overall proportion of time
I       spent by the senior staff member viewing pornography during work hours instead of performing
        official duties, and assuming again that 30 minutes of the viewing on each of those days occurred
        during an uncompensated period;2 NSF and the United States aid the senior staff member -
        approximately $58,000 in salary and benefits to view pornographyR .

        A useful graphical depiction of the senior staff member's activity, based on his credit card
        charges, is as follows:

                      Monthly Personal Credit-Card Charges and Estimated Duration of Paid Online Pornography
                                     Viewing During Official Time for NSF Senior Staff Member




                                                                    Month

                                                       ~onth&.credit~ h & g e s+- MonthlyTime   I     .   .


                            (Data for June 2006 and May 2008 are for halfmonths due to credit card billing cycle)
                             (Time data are based on cost of $2.00 per minute as stated by senior staff member)


        The cyclical nature of the activity may be due, at least in part, to travel the senior staff member
        planned and executed in fall 2006 (September 13-15,2006, to "Colorado), early 2007 (January 22
        to February 5, 2007, to Nigeria), late 2007 (December 8-20, 2007, to Senegal), and .early 2008
        22
          Which reduces the percentage of time to 15%.
                                                                                                                              I
        * The senior staff member was not forthcoming when asked about the amount of time he spends on the website and       Ii
        had initially stated he spends about 10 minutes a day on the website. He la;er said he may possibly spend about an   !

        hour or so but not more than 2 hours a day and claimed that this was during his lunch or after work hours.           I
                                                                                                                             !
                                                                                                                             I
 (March 17-19, 2008, to ~lorida).~'Similarly, his time and attendance records for the June 2006
 through May 2008 period show that the senior staff member used large blocks of vacation time
 on January 22 - February 2, 2007 and August 21 - September 14,2007. Throughout the entire
 time period, he routinely used small increments of leave and credit hours, thus contributing to the
 pattern of his paid online activity.
                                                                             \


                                  Breach of Ethical Conduct Rules and Regulations:

 The NSF Personnel Manual states that:

         NSF employees are expected to adhere to basis standards of integrity and decency. NSF
         employees must not engage in criminal, dishonest, immoral or any other conduct that is
         prejudicial to the Government. (Section 143)

The Principles of Ethical Conduct for Government Employees states, in pertinent part:

         Employees shall endeavor to avoid any actions creating the appearance that they are
         violating the law or the ethical standards promulgated pursuant to this order. XExecutive
         Order 12674(n)).

These principles are embodied in NSF Manual 15, Part I, Section 3 and Section 14.

Ethics regulations promulgated by Office of Government Ethics state:

       An employee shall use official time in an honest effort to perform official duties. An
       employee shall not encourage, direct, coerce or request a subordinate to use official time
       to perform activities other than those required in the performance of official duties.
       (OGE Regulations, 5 CFR Section 2635.705)
                                                                     - -.
This regulation is embodied in NSF Manual 14, Part V, Section 56(d).

Finally, according to the Office of Personnel Management, the Senior Executive Service is

        "comprised of the men and the women charged withleading the continuing
        transformation of government. These leaders possess well-honed executive skills and
        share a broad perspective of government and a public service commitment which is
        grounded in the Constitution."

Further, they form a "co s of executives selected for their leadership" and serve in key
governmental positions.?T Members of the SES are considered the most senior, skilled and
trusted employees in the federal government.



24             -
    See Tab # 16 Copy of travel records/documents for senior staff member.
25 See www.opm.~ov/ses
26 Id.
I


     OIG concludes the senior staff member had a duty to abide by these and other ethical conduct
I
     standards, and failed to do so.
I
I

                                                 Hostile Workplace

    In addition to the original anonymous complaint,2' OIG received a report of the senior staff
    member's pornography viewing activities from an anonymous NSF employee while the
    investigation was underway.28 Furthermore, other interviews conducted by OIG revealed that
    the senior staff member's activities were known to others in the directorate for at least the last
    two years, and caused discomfort to some. At the same time, employees-generallywere reluctant
    to make any official report or complaint because the misconduct involved a senior staff member
    and employees feared that they would suffer in some form Tor complaining. His activities
    adversely affected the workplace and made it offensive and h~stile."~

    The OIG concludes that the senior staff member's activities violated NSF's policy on Equal
    Opportunity i d Diversity and Prevention of ~arassment.~'

                                                    OIG Analysis

    Based on the information contained in this report and the senior staff membef's own admission,
    OIG concludes that the senior staff member utilized his NSF computer to visit an inappropriate
    website, view various images, photographs, and live videos of a sexual nature, and interact with
    "performers" on the website. OIG forensic analysis identified more than 4,800 images and other
    files containing photographs of nude and partially dressed women, many of which contained
                                                               ,
    very sexually provocative poses and positions.

    While reluctant to put an estimate on the amount of time he spent on the website, as he had
    initially said he spent about 10 minutes a day on the website, he did later acknowledge that his
    time on the website had increased over time. This information issonsistent with the information
    from the credit card charges on his billing statements. Additionally our investigation determined
    that during the course of four work days for which records were obtained and reviewed, the
    senior staff member accessed the pornographic website for over 9 hours and 30 minutes. During
    this time period, he spent nearly 2 hours a day online on unofficial, inappropriate activities."

    By accessing an inappropriate web site and viewing inappropriate material on his NSF computer
    such as pornographic photos and live videos, the senior staff member knowingly violated
    policies contained in NSF BULLETIN 04-1 1, Personal Use of NSF's Technology and
    Communication Resources, which states: "Senior staff members may make use of the Internet
    and electronic mail for matters that are not official business provided that the following criteria
    are met: (1) the use does not result in an additional charge to the.government, $2) the use is not
    offensive to co-workers or the public (such as sexuallv explicit or otherwise inappropriate

    27 See Tab # 2, noted previously.
    28             -
       See Tab # 17 Copy of 2"dcomplaint received by OIG.
    29 See Tab # 18 - MOI - Interview of Confidential Source, dated June 19,2008.
    30 See Tab # 19 - NSF's policy on Equal Opportunity and Diversity and Prevention of Harassment.
    3' After adjusting for the daily 30-minute uncompensated period.
     web sites), and (3) the use is not for illegal activities (such as gambling or the distribution of
     copyrighted materialslmedia through illegal file sharing {peer to peer) or otherwise)."
     (Emphasis added)

     By accessing and viewing sexually explicit material on his NSF computer, the senior staff
     member violated NSF's Personal Use Policy by engaging in an inappropriate use expressly cited
     in the Model Policy adopted and incorporated by reference, and NSF's IT Security User
     Responsibilities-Rules of Behavior. By using substantial official time for this unauthorized and
     unofficial pursuit, the senior staff member violated the ethical standard requiring him to use
     official time to perform official duties32. More .generally, the senior staff member's conduct fell
     well short of that expected of a member of the Senior Executive Service in terms of trust,
     leadership, reliability, independence, example, and public service.

    Furthermore, the senior staff member canied on his pornography viewing activities in such a
    way that other members of the directorate could observe and be discomfited by them. The work
    environment fostered by the senior staff member's activities is hardly conducive to enective
    work, and essentially created an offensive and hostile work environment and the perception that
    other, far more lenient standards applied to senior staff.

    Finally, NSF and the United States were deprived of value received in exchange for the salary
    and benefits paid to the senior staff member for the substantial time spent engaging in this
    misconduct. Each day that the senior staff member certified his sign-out time without noting
    absences during the day for unofficial activity, his certification constituted a false claim for
    federal funds. As noted above, depending on the way in which the scope of usage is measured
    and what concessions are made in calculations, the amount falsely claimed ranges from a bare
    minimum of $13,800 to a more realistic $58,000. Assuming that the Department of Justice
    declines to accept this matter for criminal or civil resolution," NSF may want to evaluate
I   whether salary and benefits improperly paid to or on behalf of the senior staff member can be
    considered "overpayments" and if so, whether administrative mechanisms are available to
    recover such sums.

                                                   OIG Conclusions
I

    1. The senior staff member spent a considerable amount of official government time using an
    NSF computer and network/internet/e-mail account visiting a pornographic website, engaging in
    sex-oriented online "chatting," and viewing inappropriate material. This violates NSF IT policy.

    2. The senior staff member is being paid an SES salary for SES-level work and has misused
    government time and resources instead of performing the duties he is paid to carry out as a senior
    government official. This violates ethical standards of conduct and the professional standards of
    the Senior Executive Service.


    32 See          -
           Tab # 20 Position description for senior staff member.
    33OIG has contacted both criminal prosecutors and civil litigators at the U.S. Attorney's Office for the Eastern
    District of Virginia. The criminal prosecutor has declined to open a criminal case, in favor of agency administrative
    action. The civil litigator's schedule precluded a full evaluation of the case until mid-July.
3. The senior staff member's lack of respect or regard for others within the NSF agency
workplace who might inadvertently observe his viewing of offensive sexually explicit material
over a 2-year period created a hostile offensive work environment and fostered the unhealthy
perception of the standards applied to senior executives.

4. The senior staff member has spent at least 331 days and over $40,000 of his own money
since June 2006 viewing online pornography while on duty at NSF using his NSF computer
facilities. He spent at least 3.7 percent and more likely 15 percent of his duty time, at a cost to
taxpayers of at least $13,800 and more likely $58,000 to facilitate his on-line activities. The
salary and benefits received by the senior staff member for these activities are the product of
false time-card claims against the .government.

                                    OIG Recommendations

Based on the conclusions outlined above, we recommend that the National Science Foundation
proceed with administrative actions that are appropriate with regard to an NSF SES employee:

a. Who misuses NSF computer equipment and telecommunications services to engage in
substantial, near-daily viewing of online pornography in violation of NSF and federal policies;

b. Whose substantial misuse of official time for unofficial and inappropriate activities violates
the government's standards of ethical conduct and the professional standards of the SES;

c. Whose viewing of online pornography during working hours on NSF equipment could be
observed by other employees for a period of at least 2 years, damaging the workplace
environment and compromising management efforts to assure all of equal treatment and to
enforce IT security policibes;and,

d. Who conceals his inappropriate behavior in false time-card claims for services that cause NSF
and the United States to waste at least $13,800, and more likely $58,000, in salary and benefits
for which they received no services of value.
                                          National Science Foundation
                                          4201 Wilson Boulevard
                                          Arlington, Virginia 22230




        Date:         September 25,2008
         I




        To:




        From:




        By letter dated August 25, 2008, you were notified of a proposal to remove you from the
        National Science Foundation. Iwas designated as the deciding official on that proposal.

        You were advised of your rights to representation and to reply to me orally and/or in writing
        within 14 calendar days of your receipt of the proposal. You provided both an oral and a
        written reply. You did not dispute the facts or charges stated in the proposal to remove, but
        offered several mitigating factors you wished to have considered. I have reviewed and
        considered your written response which consisted of your Curriculum Vitae and a 58 page
                                                    -
        document titled "Professional History 1962 presentnwhere you describe the positions of
        responsibility you held at NSF and your accomplishments in each of those positions. I have
        also carefully considered your oral reply in which you describe your belief that you could be
        rehabilitated; that you had learned your lesson; that you believed there was a humanitarian
        aspect to your actions in that you are deeply concerned about developing countriis and
        believed you were helping with educational efforts; that you possess significant experience
        and knowledge worthy of being retained by the agency; that you have important work that
        you would like to implement such as the          long rarlge plan; and that you deeply regret
        your actions.

        I have given full consideration to the information regarding the charges contained in the
        Notice of Proposed Removal dated August 25,2008, and the factors raised in your oral and
I       written reply.

        The proposal to rkmove you from the National Science Foundation was based on two
        charges. Charge #I    is Misuse of Government Equipment and Charge #2 is Misuse of
        Government Time. Charge #1 is supported by 10 specifications spanning nearly a two year
        period of time where you routinely and repeatedly viewed pornographic websites, engaged
    I   in free and paid online chats, viewed live sexual performances for a fee, and stored over
        4800 inappropriate images on your government computer. I have reviewed the significant
        documentation in support of this charge, including the names of the sites that you routinely
        visited and representative samples of pornographic pictures from those sites, as well as the
        numerous e-mails you sent to individuals on these sites using your National Science
                Foundation e-mail address. You did not dispute the accuracy of the charge or the
                documentation provided in support thereof. Charge #l
                                                                   is sustained in full.

                Charge #2 outlines your misuse of approximately 305 hours of government time when you
                visited pornographic websites during work hours, when you should have been performing
                productive work for the agency. Once again, the analysis provided as part of the case file
                clearly establishes that you routinely wasted government time for which you were receiving
                compensation while engaging in inappropriate and nonproductive activities. You did not
                dispute the accuracy of the charge or the documentation provided in support thereof.
                Charge #2 is sustained in full.

                Both of the charges are extremely serious and each standing independently would warrant
                removal. I find the significant repetition, volume, and longevity of your infractions very
                troubling. You admitted in your statement to representatives of the Office of Inspector
                General that you were aware that your activities were inappropriate. You were clearly on
                notice that your actions violated agency policy in that the required annual IT training, which
                you certified that you completed, covered the impropriety of viewing and downloading
                pornography. Despite having clear notice and admitting that you knew your behavior was
                inappropriate, you chose to routinely access pornography at work, neglecting your duties,
                and misusing hundreds of hours of agency time.

                 I considered the fact that your position of '- .
                                            . is one of the highest ranking positions in that organization. I find
                your conduct has negatively affected your manager's confidence in your judgment and your
                ability to fulfill the duties of your position. As - -... .        you must use your professional
                judgment to provide advice, make recommendations, provide leadership, and carry out the
                functions of                       These responsibilities require you to be trustworthy, have good
                character, be respected by those seeking your advice, and be corrlrrlitted to taking the right
                action.

                I have considered the fact that, as a member of the Senior Executive Service, you are one
                of a cadre of executives in the federal government who are expected to have superior
                leadership skills and to model exemplary behavior. I find your blatant and unacceptable
                misconduct runs afoul of those expectations. Your actions displayed a disturbing lack of
                sound judgment and a thorough lack of appreciation of the impact that the inappropriate
I
                behavior of a Senior Executive can have on the agency.
I               I find incredulous your statements that you believed there was a humanitarian aspect to
                your actions in that you are deeply concerned about developing countries and believed you
    I           were helping with educational efforts. Such a rationale for your behavior clearly shows a
                continuing failure to fully accept that there is no excuse for the conduct in which you
                engaged. In addition, the remorse you expressed only occurred after your misconduct was
            #
                discovered by the Office of Inspector General and only after you had engaged in this
                misconduct for more than a 2 year period.


        I       I have fully considered your more than 28 years of service with the National Science
                Foundation and the lack of prior discipline during that time. I also note that your past
                performance appraisals have met expectations. However, I find these factors insufficient to
                offset the seriousr~essof the misconduct with which you are charged.
    The fact that your misconduct was frequently repeated over an extended period of time
    militates against your potential for rehabilitation. Although in your oral reply you indicate
    that you believe you have the potential to be rehabilitated, I am not convinced. I am
    troubled by the fact that you accessed a pornographic website (livejasmin.com) one day
    after indicating to the OIG the inappropriateness of your actions and stating that you would
    discontinue the activity. As a result, the agency can have no faith in your judgment and .
    trustworthiness. -

    I find no alternate sanction is appropriate given the severe nature of your misconduct. You
    are a Senior Executive who holds a position of leadership and trust in the agency. As such
    your actions are held to a higher standard of conduct. Given the totality of your actions I
    cannot in good conscience support a penalty of less than removal.

    After full consideration and examination of all the relevant factors and in accordance with 5
    U.S.C 7543, 1 find the charges are fully supported by the evidence. Accordingly, it is my
    decision to remove you from your position and from employment with the National Science
    Foundation effective September 30, 2008.

    If you wish, you have the right to appeal this action, in writing, to the Merit Systems
    Protection Board (MSPB), Washington Regional Office, 1800 Diagonal Road, Alexandria,
    Virginia 22314. For your convenience, a copy of the MSPB appeal form and procedures
    are enclosed. If you elect to appeal, you must file your appeal with the MSPB no later than
    30 days after the effective date of your removal. You may be represented by a
    representative of your choice in filing an appeal.

    If you believe this action was motivated in whole or in part by discrimination because of your
    race, color, .religion, sex, age, national origin, physical or mental disability, or your
    allegation(s) of reprisal for prior EEO activity, you have the following options available to
    you: (1) You may appeal this action and your allegation(s) of discrimination andlor reprisal
    to the Merit Systems Protection Board, or (2) pursuant to29 CFR Part 1614, you may file a
    complaint about this action with the National Science Foundation Office of Equal
I
    Opportunity Programs. If you decide to file a discrimination complaint about this action, you
    must bring your allegation(s) of discrimination to the attention of an EEO counselor within
I   forty-five (45) calendar days of the effective date of your removal.

    Exercising your right to file an appeal will not postpone the September 30, 2008 effective
    date of your removal.




       I acknowledge receipt of this document.



       Signature
                                             .
                                                 'S
                                      . C             c,
                                                      National Science Foundation
                                                       6;

                                                 -    4201 Wilson Boulevard
                                       I

                                       c
                                         \ L' ..:
                                            '-
                                                  .\' Arlington, Virginia 22230




                        Date:         August 25,2008


                        To:




                        From:




                    This is notice that I propose to remove you from your Senior Executive Service
                    position as '                                                                         t~o
                    sooner than thirty (30) days from the date of your receipt of this nitice. This action is
                    taken for both your misuse of government equipment and your misuse of
                    government time.
I

                    As background, an inquiry was initiated into your use of government computer
I
                    equipment following an anonymous Hotline complaint received by the Offce of the
                    Inspector General (OIG). The complaint alleged that you routinely viewed and
I
    I               displayed pornographic images of "young nude girls" on your NSF desktop.monitor
    I               and that these images were observable by individuals passing by your office.
                    Subsequently, the Office of Inspector General (OIG) conducted an investigation and
                    issued Investigative Report Case Number 10805003 on June 25, 2088 which is
                    incorporated into this notice of proposal by reference. The report revealed that your
                    government computer hard drive contained over 4800 inappropriate images; that
        I
                    you accessed the pornographic website "asianbabecams.comnand "livejasmin.comn
                    where you engaged in free and paid online chats; that you viewed live sexual
        I           performances for a fee; and that you wasted hundreds of hours of government time
            I       on these unauthorized activities.
                    Charqe #I.Misuse of Government Equipment
            I
                    On June 11, 2008 you were    - interviewed by                               and
                I
                                                      , and on June 12, 2008 you were interviewed by
                                                  and '                                     from the
                    OIG. Prior to the interview, you were pFovided with a'copy of a darrity Warning
                    which you read and signed. In the interviews, you were questioned a b u t your
                    internet activity and use of government equipment. You told Inspectors that you
                      -sne                  avejasrn~n.comsomet~me~n2                      1
                         stated that you knew that the website was not right the moment you first saw it. You
                         said that one would characterize the site as inappropriate. You stated that you
                         viewed the website in your office with the door normally left open. You
                         acknowledged that your office is in a high traffic area located next to the copier room
                        and a store room. You stated that you have used your NSF email address to
                        communicate with some of the women on the website and that you have also used
                        the webcam attached to your computer monitor to engage in online chats.

                       You were shown samples of the images found on your -computer. These images
                       were of nude and partially clothed females in sexually suggestive positions. You
                       acknowledged to the OIG that these were in fact the types of images that you
                       viewed. You were shown a listing of your internet browser history which mostly
                       contained visits to the pornographic website "livejasmin.com". You acknowledged to
                       the OIG that you visited these sites, stating "seems like a lot doesn't it" as you
                       reviewed the browser history.

                      At the conclusion of the interview with the OIG on June 11, 2008 you provided the
                      following sworn statement: "I hereby declare that viewing the website Live Jasmin
                      on my government computer was inappropriate. I also wish to state that this activity
                      will not continue as of 11/6/08."'

                      Based on your admission in the interview conducted with the OH3 and your sworn
                      statement, I find that you violated NSF Manual 15 Conflicts of Interest and
                      Standards of Ethical Conduct, which states in relevant part,

                           "56 (c) "Misuse of Government Property. You should protect and conserve
                           Government property and you must not use it, or allow its use, for unauthorized
                           purposes. Government property includes, office supplies, Government mail and
                           phone services, computers, copying equipment, records, vehicles, and the like,".

                      In addition, you violated the NSF policy on Personal Use of Technology and
                      Communication Resources which states in relevant part, "Employees may make use
                      of the Internet and electronic mail for matters that are not official business provided
I                     that the following criteria are met: (1) the use does not 'result in an additional charge
1                     to the government, (2) the use is not offensive to coworkers or the public (such as
I
                      sexually explicit or otherwise inappropriate web sites), and (3) the use is not for
                      illegal activities (such as gambling or the distribution of copyrighted materialslmedia
    I
                      through illegal file sharing [peer to peer] or otherwise)"
                                                                           . ..     Specifically, your actions
                      deady vioiated item (2) above.
    I                 The specifications below, which derive from the above-referenced ffi report, support
    I
    I                 the charge of your misuse of government equipment.
        I




                    H'e interpret this date to be June I I . 2008. as opposedro No\.ernber6.2008. because !.ou siened rhe s\\.orn
                 .statementon June 11.2008.
                                                                                                          ___.__.__                 -..--       -
            ,   __                         _.   _   -. ... .           -.

        I
                                                                                                                                      .     .
     An examination of your computer revealed that you had approximately 4800 images
     of naked and minimally clothed women in sexually suggestive poses stored on your
     computer C drive. A representative sample of 760 images of the 4800 total is
     attached to and incorporated into this notice by and through attachment 1. A disk
     containing all 4800 images is also included.

    Specification #2
     On at least six (6) occasions between July 14. 2006 and August 8, 2006 you sent
    emails to the customer service department of the website host
    "asianbabecams.comnseeking assistance retrieving your membership ID, accessing
    your account, purchasing additional credits, and utilizing the webcam. On five (5) of
    those six (6) occasions you included information that identified you as an employee
    of the National Science Foundation which had the potential to cause embarrassment
    to yourself and tarnish the image of the Foundation. The emails are attached to and
    incorporated into this notice by and through attachment 2.

    Specification #3-
    Between October 31, 2006 and April 26, 2007 you sent and received at least 14
    emails from one of the live performers you frequently viewed andlor chatted with
    from "livejasmin.comnknow as "Evan utilizing your NSF email account. The email
    messages you sent to Eva began with phrases such as "Hi Sweety", 'Hello my
    Loven, "My loven, "Hello my Love in SPB!" and ended with phrases such as "Take
    care 'and lots of kissesn, "You are the best too and the loveliestll!!!!!!!1!",
    "KISSSSSSSSSSSSSSSSn, and "I am fine except that I miss you very much my
    love." The emails are attached to and incorporated into this notice by and through
    attachment 3.

    Specification #4
    Your bankcard statements revealed that at least on 328 occasions between June
    2006 and May 2008 you utilized government equipment during work hours to access
    pornographic websites. Dates of access are attached to and incorporated into this
    notice by and through attachment 4.

    Specification #5
    Your bankcard statements revealed that at least on 59 occasions between June
    2006 and May 2008 you utilized government equipment on non work days to access
    pornographic websites. Dates of access are attached to and incorporated into this
    notice by and through attachment 5. .
    --

I   Specification #6
I   An examination of your browser history for April 3, 2008, revealed that ,525 of the
I
    544 hits discovered on your computer were to the pornographic website
    "livejasmin.com." Due to the extraordinary amount of activity reflected on your
    browser history, I have listed some but not all of the sites that you visited. A listing
 of the rernain~ngsites are attached to and incorporated into this notice by and
 through attachment 6.
 http:llmembers.livejasmincomlfreechat.php?pedormerid=~um2mylips~~&tags=gi~+age~18~22,
 http:llmembers.livejasmin.com/freechat.php?pedormerid=2Suck2Fuuck&t~gs=couple+asian,
 http://mem bers.livejasmin.com/freechat.php?pedorme~d=SeXXXyTE~N69&tags=girl+asian,
 http:llmembers.livejasmin.comKreechat.php?pedormerid=HardClitGirl69&tags=girl+asian,
 http://members.livejasmin.com/freechat.php?pedormerid=pussy4all&tags=girl+asian
 http://members.livejasmin.com/pedinfo.php?pedormerid=8arelyl8&page=2
 http://members.livejasmin.com/freechat.php?pedormerid=SexyFuckDoll&tags=girl+asian
 http://members.livejasmin.com/freechat.php?pedormerid=wetcumpussy&tags=girl+asian
 http://members.livejasmin.com/freechat.php?pedormerid=Love2CumWithU&tags=girl+asian
 http://members.livejasmin.mmlfreechat.php?pedormerid=iloveSUCKlNG&tags=couple+asian
 http://members.livejasmin.mm/freechat.php?pedormerid=goodfucke~9&livejasmin~session
Specification #7
An examination of your browser history for April 10, ,2008, revealed that 23 of the 27
hits discovered on your computer were to the pornographic website livejasmin.com.
Due to the extraordinary amount of activity reflected on your browser history, I have
listed some but not all of the sites that you visited. A listing of the remaining sites         ,
are attached to and incorporated into this notice by and through attachment 7.




Specification #8
An examination of your browser history for May 15, 2008, revealed that 576 of the
598 hits discovered on your computer were to the pornographic website
"Iivejasmin.com." Due to the extraordinary amount of activity reflected on your
browser history, I have listed some but not all of the sites that you visited. A listing
of the remaining sites are attached to and incorporated into this notice by and
through attachment 8.
 http:llmembers.livejasmin.com/freechat.php?pedormerid=TrueOrg~m&tags-~uple+asian
 http://members.livejasmin.com~istpage.php?page=7&tags=transgender+shemales&~pe=40
 http://members.livejasmin.com/freechat.php?performerid=FUCKINGweKjlRL&tags=girl+asian
 http://members livejasmin.com/freechat.php?performerid=F~KloveASlAN&~gs=girl+asian
 http:llmembers livejasmin.com/freechat.php?~rformeild=CUMwetM€&tags=girl+asian
 http://members livejasmin com/freechat.php?performer'rd='SHYSLUT18&tags=girl+ebny
 http:llmembers.livejasmin com/freechat.php?pedormeri~~lTTLEWETPUSSY&~_~~=girl+asian
~pfTTti5embers~lkejasmin   com~freechat.php~pe~orm~rid=~umm)PClit9&tags=girl+asian
http://members livejasmin.comlperfinfophp?pedormerid~uckLlKEaDog8tagsrtransgendeP/0'2Oshemale
http://members live~asmrn.com/freechat.php?performerid=peeSqui~&tags=girl+asian

Specification # 9
~n examination of your browser history for June 5. 2008, revealed that 544 of the
553 hits discovered on your computer were to the pornographic website
livejasmin.com. Due to the extraordinary amount of activity reflected on your browser
                           e iisted some but not all of the sites that you visited. A listing of the
             zidg?ies           are attached to and incorporated into this notice by and through
             attachment 9.




            Specification # 10
            A review of your browser history for June 12, 2008 shows that you made multiple
            visits to the pornographic website livejasmin.com. The sites accessed are listed
            below.
            http;llwww.2.livejasmin.comlinfo.php?livejasmin~session=4ca2e27~e40170fc0618f45205
                                                                                           13d75cbe0960e
            Host: www.2.livejasmin.com
            http:llwww.2.Iivejasmin.m




        I
            Charge #2. Misuse of Government Time

            During the June 11 and 12,2008 interviews referenced under Charge 1 above, you
                                                                                                           I
            told Investigators that you began accessing sexually explicit websites sometime in
            2006. You stated that you only viewed these websites at work and that you spent
            about two hours a day on this activity, You stated that you paid a fee of $2 per
            minute to engage in private online chats and view live sexual performances. You
            stated that you had the credit card statements reflecting those charges mailed to
            your NSF address. Upon request from the OIG you provided copies of your credit
            card statements for the period of June 2006 to May 2008. An analysis of your
            statements revealed that you frequently purchased rnuttiple interactive sessions in

~
I
I
            amounts ranging from $29.99 to $99.99.

            The charts below show pay period totals for the dollars you spent and time you used
            viewing pornographic websites. It is important to note that although you
            acknowledged accessing and viewing free inappropriate sites during work hours, the
            figures below only reflect charges made to your credit card for viewing paid internet
            sites .between
                    -      Monday and Friday,

            Between the periods of June 14, 2006 to May 13,2008, you misused approximately
            305 hours of go.vernment time by viewing and accessing sexually explicit websites
    I
    !
            while at work. During that time, you were not performing your duties as a Senior
            Advisor. Instead, you used your government computer to log onto the websites,
    i       "asianbabes.comn and "livejasmin.com" to view live sexual performances andlor
            interact directly with performers utilizing government equipment locakd in your
          onlce. While engaged in this unauthorized activity, you received over $24,000 in
          wages and benefits.
          2006 All amounts are rounded to the nearest whole number




         As stated for Charge #1, you also violated NSF Manual 15 Conflicts of Interest and
         Standards of Ethical Conduct, which states in relevant part,

             '56 (d) Misuse of:official time: Unless specifically authorized otherwise, you must   .   '




             use your official timeonly in an honest effort to perform official duties."
                                                                                           .   .



         Considerations Underlvina the Proposed Action
                                                                     --
II       -ln          this action I have considered your 28 years of service with the National
         Science Foundation. I note that your record does not reflect any discipline having
         been issued to you during that time. I also note that your past performance
 I       appraisals have been favorable. However, I find these factors insufficient to offset
         the seriousness of the misconduct with which you are charged.

     I
                one of the highest ranking positions in the Directorate. In this position, you
    are responsible for                                                             providing
    leadership, and establishing long-term Directorate goals. In addition to these
                 '


    functions you are the     '                             within the Directorate who is
    responsible for providing guidance to staff in resolving                         i issues
    arising in the handling of proposals and awards. This position requires you to have
    good judgment and to be committed to taking the right action, trustworthy, respectful,
    responsible, and otherwise of good character. Furthermore, as a Senior Executive,
    besides having the characteristics mentioned above, you are supposed to set an
    example for all         staff. Instead, you have engaged in conduct that is, in my
    opinion, unacceptable in any work environment, but particularly in a government
    environment.

    The offenses you are charged with are serious and significant. You admitted that
    you were aware that your activities were inappropriate at work and that they were
    inappropriate activities to be performed on NSF computer resources. The incidents
    giving rise to this notice of proposed removal were not isolated, unintentional, or
    inadvertent. They occurred on multiple occasions spanning nearly a two (2) year
    period of time. You visited inappropriate web sites which displayed graphic images
    unsuitable on a government computer during work hours, in such a way that
    individuals passing by your office could easily view. You admitted in your interview
    with the OIG investigators that you were aware that your door was normally open
    when you viewed these materials and that your o f f m was in a high traffic area,
    which further exacerbates your misconduct.

    In addition, documentation exists which verifies that you completed the required NSF
    annual IT training on July 11, 2007, July 7, 2006 , and July 15, 2005. The training
    specifmlly dealt with the topic of misuse of government computer resources,
    including viewing or downloading pornography. Clearly, you were aware during the
    period of your violations that your behavior in the latter regard was counter to
    government policies. I find particularly troubling the fact that you completed training
    four (4) days before you first began accessing sexually explicit websites in 2006,
    and, similarly, following your annual IT training on July 11, 2007, you accessed the
    website livejasmin.com the very same day.

    The fact that these incidents have been repeated with such frequency, over such a
    long period of time, and in such a deliberate fashion leads me to mnclude that you
I   do not have the potential to rehabilitate. Given the volume of infractions
                                                                           -   fiat you
    co&#ed; tke kid -that-you are a Serri~i'€x&utive and                           , the
    serious nature of the offenses, and the fact that you even accessed the site
    "livejasmin.cornnone day after admitting the inappropriateness of your behavior in
    the interview with the OIG, I am recommending the penalty of removal from the
    Foundation.
                        Osal and not a final action. You have the right to reply both
orally or in writing or both and to furnish aMavits and other documentary evidence
in support of the answer. You have the right to reply within fourteen (14) calendar
days after the date that you receive this proposal. You have the right to b e
represented by an attorney or other representative. You have the right to a
reasonable amount of official time. You have the right to review the material which
is relied upon to support the reasons for the action proposed in this notice.

Should
 . .    you choose
               .. - .to file a written reply to this proposal, you should direct it to
                                                                                   ., who
has been designated by the Office of the Director as the deciding officiai in this case.
If you wish to reply orally, please contact '                             to arrange an,
appointment.

            will carefully review this proposal notice, the material upon which the
proposal is based, and consider any oral or written reply made by you or your
representative before making a written decision. You will remain on duty status
during the notice period of the proposed action.

If you believe a personal problem has contributed to our caused your inappropriate
behavior, I urge you to make an appointment with an Employee Assistance Program
(EAP) Counselor. This is a confidential program, and you may reach a counselor by
calling the GOPE at (202) 628-5100 to schedule an appointment. Recommending
EAP is solely to advise you of the availability of assistance. Ultimately, you are
responsible for your conduct.

If you have any questions regarding your rights or the pro~eduresused in this
matter, you may contact
          in the Division of Human Resoyrce Management.              can be
reached on extension




I acknowledge receipt of this document.



                                   v
Signature                                           Date
